IN THE SUPREME COURT OF THE UNITED STATES

ROBLES, CARLOS ENRIQUE URRUFIA
Petitioner
vs.

No:

19-1363

WILLIAM P. BARR, ATTORNEY GENERAL
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
July 13, 2020
cc:
BENJAMIN CASPER SANCHEZ
JAMES H. BINGER CENTER FOR NEW
AMERICANS UNIV. OF MINNESOTA
LAW SCHOOL
190 MONDALE HALL
229 19TH AVE. SOUTH
MINNEAPOLIS , MN 55455

